Department of Health and Human Services

        OFFICE OF
   INSPECTOR GENERAL




   OVERSIGHT OF MEDICARE
PPS-EXEMPT HOSPITAL SERVICES




                    JANET REHNQUIST
                    INSPECTOR GENERAL

                    NOVEMBER 2002
                      OEI-12-02-00170
                  OFFICE OF INSPECTOR GENERAL

                                    http://www.oig.hhs.gov/


The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended,
is to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as
the health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:


Office of Audit Services

The OIG' s Office of Audit Services (OAS) provides all auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits examine the
performance of HHS programs and/or its grantees and contractors in carrying out their respective
responsibilities and are intended to provide independent assessments of HHS programs and operations
in order to reduce waste, abuse, and mismanagement and to promote economy and efficiency
throughout the Department.


Office of Evaluation and Inspections

The OIG' s Office of Evaluation and Inspections (OEI) conducts short-term management and program
evaluations (called inspections) that focus on issues of concern to the Department, the Congress, and
the public. The findings and recommendations contained in the inspections reports generate rapid,
accurate, and up-to-date information on the efficiency, vulnerability, and effectiveness of departmental
programs.


Office of Investigations

The OIG' s Office of Investigations (OI) conducts criminal, civil, and administrative investigations of
allegations of wrongdoing in HHS programs or to HHS beneficiaries and of unjust enrichment by
providers. The investigative efforts of OI lead to criminal convictions, administrative sanctions, or
civil monetary penalties. The OI also oversees State Medicaid fraud control units which investigate and
prosecute fraud and patient abuse in the Medicaid program.


Office of Counsel to the Inspector General

The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support in OIG’s internal
operations. The OCIG imposes program exclusions and civil monetary penalties on health care providers
and litigates those actions within the Department. The OCIG also represents OIG in the global
settlement of cases arising under the Civil False Claims Act, develops and monitors corporate integrity
agreements, develops model compliance plans, renders advisory opinions on OIG sanctions to the health
care community, and issues fraud alerts and other industry guidance.
                         EXECUTIVE                       SUMMARY


PURPOSE

          To examine the extent of routine review of Prospective Payment System (PPS)-exempt
          inpatient services for medical necessity and reasonableness.


BACKGROUND

          Forty million beneficiaries have coverage for hospital services through Part A of
          Medicare. In addition to acute care hospitals, Part A covers inpatient care in psychiatric,
          rehabilitation, critical access, and long-term care hospitals. Each of these specialty
          hospitals is exempt from the PPS established for acute care hospitals in 1983.

          During our annual work planning process, we determined that these providers were not
          being routinely reviewed. The Peer Review Organization (PRO) program, whose
          contractors have recently been renamed as Quality Improvement Organizations (QIOs),
          has eliminated routine medical review of PPS-exempt inpatient services from its
          contracts. Fiscal intermediaries, who reviewed claims prior to the PPS, ceased routine
          review with the establishment of the PRO program. Payment safeguard contractors,
          operating under the relatively new Medicare Integrity Program (MIP), have not received
          task orders dedicated to analysis and review of these providers either.

          To determine the potential impact of this lapse in oversight, we reviewed data from the
          HCFA Customer Information System (HCIS) for the number of billing providers and an
          estimate of Medicare payments. We took information regarding improper payments
          attributed to PPS-exempt facilities from “Improper Fiscal Year 2000 Medicare Fee-for-
          Service Payments," report number A-17-00-02000. We reviewed requests for proposals
          for both the sixth and seventh PRO contract cycles, the Medicare Program Integrity
          Manual, Medicare regulations, and the Social Security Act. The PPS-exempt hospitals
          received approximately $8.7 billion from Medicare in the year 2000 and accounted for
          $800 million of the estimated year 2000 Medicare payment error rate.




Oversight of Medicare PPS-Exempt Hospital Services   i                                   OEI-12-02-00170
FINDINGS

Medical Review of PPS-Exempt Hospitals and Units Has Not Been
Routinely Performed

          The QIOs, fiscal intermediaries, and MIP contractors could all potentially perform routine
          statistical analysis and medical review of PPS-exempt hospitals; however, for a variety of
          reasons, none were tasked to do so. On February 28, 2002, after our exit conference with
          CMS, fiscal intermediaries were notified that they may include PPS-exempt hospitals in
          their reviews; however, no additional funding was provided for this expansion of review
          responsibility.

Medicare Payments and Error Rate Estimates for PPS-Exempt
Inpatient Services Are Significant

          Medicare paid approximately $8.7 billion to PPS-exempt hospitals in 2000 for inpatient
          claims by over 3,700 different PPS-exempt hospitals and units. Our audit report
          “Improper Fiscal Year 2000 Medicare Fee-for-Service Payments," attributed $800 million
          of improper payments as being due to issues of medical necessity in PPS-exempt
          facilities.


RECOMMENDATION

          The CMS should ensure that oversight of PPS-exempt hospital services is performed.



AGENCY COMMENTS

          The CMS concurred with our recommendation, referencing Transmittal 21. Given the
          lack of funding for this additional work, it is not clear to what extent fiscal intermediaries
          will conduct systematic oversight, including medical review, nor is it clear to what extent
          this may hamper oversight of other Part A provider types by drawing off resources. The
          CMS should be able to assess the effects of this program memorandum as the results of
          its Comprehensive Error Rate Testing program become available. Appendix B contains
          the full text of CMS’ comments.




Oversight of Medicare PPS-Exempt Hospital Services   ii                                    OEI-12-02-00170
                              TABLE OF CONTENTS


EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . i


INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1


FINDINGS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3


          Medical Review . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3


          Medicare Payments and Error Rates . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4


CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7


RECOMMENDATION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7


APPENDICES . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9


          Appendix A: Transmittal 21 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9


          Appendix B: Agency Comments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11


ACKNOWLEDGMENTS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12





Oversight of Medicare PPS-Exempt Hospital Services                   iii                                                    OEI-12-02-00170
                                     INTRODUCTION


PURPOSE

          To examine the extent of routine review of Prospective Payment System (PPS)-exempt
          inpatient services for medical necessity and reasonableness.


BACKGROUND

          The Centers for Medicare & Medicaid Services (CMS) is the federal agency responsible
          for administrating the Medicare program, a health insurance program for certain
          Americans who are disabled, have end stage renal disease, or are over the age of 65. Part
          A of Medicare is hospital insurance, covering hospital care, skilled nursing, home health,
          and hospice for 40 million beneficiaries.

          Section 1816 of the Social Security Act originally established fiscal intermediaries as the
          entities that pay claims to hospitals and other Part A providers. Among their duties, fiscal
          intermediaries were charged to “...make such audits of the records of providers as may be
          necessary to insure that proper payments are made...” [§ 1816(a)(2)(B)]. Until the mid
          1980s, these were the sole CMS contractors who assured program integrity of hospital
          services.

          The Peer Review Improvement Act of 1982 established PROs to review health care
          services provided to Medicare beneficiaries to determine: whether services were
          reasonable and medically necessary; whether they met professionally recognized
          standards of care; and, for inpatient services, whether they could have been more
          economically provided in an outpatient setting or an inpatient facility of a different type.
          PROs conducted a substantial number of random medical reviews of hospital claims,
          replacing fiscal intermediaries as the primary source of inpatient medical review.

          The Health Insurance Portability and Accountability Act of 1996 created a third group of
          CMS contractors with the potential to conduct medical review of PPS-exempt inpatient
          services. In addition to QIOs and fiscal intermediaries, the Medicare Integrity Program
          currently uses 12 payment safeguard contractors to carry out specific task orders to
          conduct reviews, audit cost reports, make payment determinations, and educate providers
          and beneficiaries.




Oversight of Medicare PPS-Exempt Hospital Services   1                                     OEI-12-02-00170
Methodology

          Much of the data collection for this inspection occurred during routine work planning.
          The HCFA Customer Information System provided data on Medicare payments and the
          number of billing providers. Estimates of improper payments were taken from a current
          OIG report entitled “Improper Fiscal Year 2000 Medicare Fee-for-Service Payments,"
          report number A-17-00-02000. The CMS documents were reviewed, including the
          requests for proposals for both the sixth and seventh (current) PRO contract cycles, the
          Medicare Program Integrity Manual, Medicare regulations, and the Social Security Act.

          We conducted this study in accordance with the Quality Standards for Inspections issued
          by the President’s Council on Integrity and Efficiency.




Oversight of Medicare PPS-Exempt Hospital Services   2                                 OEI-12-02-00170
                                              FINDINGS

          The PPS-exempt hospital inpatient services have not been routinely reviewed for medical
          necessity since the PRO program eliminated routine medical review from its contracts in
          1995. Fiscal intermediaries, who reviewed claims prior to the PPS, ceased routine review
          with the establishment of the PRO program. The PPS-exempt hospitals received
          approximately $8.7 billion from Medicare in the year 2000 and $800 million of the
          estimated year 2000 Medicare payment error rate was attributed to PPS-exempt facilities.
          The number of providers, the amount of Medicare reimbursement going to them, and the
          sizable payment error rate associated with PPS-exempt inpatient services makes it critical
          that systematic oversight occur. On February 28, 2002, CMS released a transmittal
          making fiscal intermediaries accountable for this oversight; however, no additional
          funding has been dedicated to PPS-exempt hospital medical review.



Medical Review of PPS-Exempt Hospitals Has Not Been Routinely
Performed

          While QIOs, fiscal intermediaries, and Medicare Integrity Program contractors all have
          authority to conduct medical review in hospitals, none were conducting routine review
          prior to February of 2002.

          Quality Improvement Organizations. Through four contract cycles, CMS directed QIOs,
          then referred to as PROs, to carry out medical review of inpatient services. In the early
          1990s, CMS began refocusing the PRO program on quality improvement. This involved
          voluntary collaborations between PROs and hospitals to improve the overall quality of
          care, rather than focusing on specific cases of substandard or unnecessary care. Random
          medical review by PROs was phased out in 1995, with few program integrity projects in
          the remainder of that contract or the subsequent 3-year contract cycle.

          In response to hospital payment errors, CMS introduced the Payment Error Prevention
          Program into the sixth PRO contract, beginning in 1999. It’s purpose was to reduce the
          occurrence of payment errors; however, the contract explicitly limited it to “inpatient PPS
          services.” The CMS determined a state-specific error rate through medical review of
          inpatient PPS claims and PRO performance was evaluated based on reductions in that
          rate. A draft seventh cycle contract posted on the CMS Internet site on December 3, 2001
          indicated that this limitation in PRO oversight would continue through the next 3-year
          contract cycle. Although medical reviews are still being conducted to measure state error
          rates, the Payment Error Prevention Program has been eliminated from the contract.




Oversight of Medicare PPS-Exempt Hospital Services   3                                  OEI-12-02-00170
          Medicare Integrity Program Contractors. Payment safeguard contractors have broad
          authority to conduct program integrity activities including data analysis and medical
          review. The Medicare Integrity Program offers the opportunity to create a single,
          specialized contractor to conduct hospital reviews, potentially improving review
          consistency and operational efficiency. To date, however, none of the task orders
          awarded specifically addresses oversight of PPS-exempt hospital claims.

          Fiscal Intermediaries. Fiscal intermediaries have the authority to conduct reviews for
          reasonableness and medical necessity within their jurisdictions. Fiscal intermediaries did
          not conduct medical review of inpatient services on a routine basis once the PRO program
          began operations.

          On February 5, 2002, a draft copy of this report was presented to CMS in an exit
          conference. On February 28, 2002, Transmittal 21 notified fiscal intermediaries that they
          may include PPS-exempt hospitals in their reviews; however, no additional funding was
          provided for this effort. The full text of the transmittal is in Appendix A.


Medicare Payments and Error Rate Estimates for PPS-Exempt
Inpatient Services Are Significant

Medicare paid approximately $8.7 billion to PPS-exempt hospitals and units in
2000 for inpatient care

          Table 1 summarizes Medicare payments to PPS-exempt hospitals and units in 2000.
          While psychiatric and rehabilitation care comprise the largest components of PPS-exempt
          payment, long-term care hospitals have experienced nearly a seven-fold increase in
          payment since 1992. Many long-term care hospitals are located on the campus of an
          acute PPS hospital, either as a hospital-within-a-hospital or as a satellite unit, facilitating
          discharges from the “host” hospital into a long-term care hospital without the patient
          being fully aware that discharge to a different provider has occurred.

          Critical access hospitals, while accounting for a small portion of dollars ($128 million),
          consist of a significant number of hospitals, with many more still in the application
          process. The beneficiaries who depend on these facilities have few choices for urgent
          care. Medical review for medically unnecessary or unreasonable services in these settings
          is a beneficiary protection issue as much as it is program integrity.




Oversight of Medicare PPS-Exempt Hospital Services   4                                      OEI-12-02-00170
                                                 Table 1

                           Medicare Payments to PPS-Exempt Hospitals and Units



           Type of PPS-exempt unit or                  Number of billing        Payments in 2000*
           hospital                                    facilities in 2000*

           Re hab U nits in PP S H ospitals            968                      $2.685 billion

           Psych iatric U nits in PP S H ospitals      1,468                    $2.168 billion

           Lo ng -Term Care Acu te H ospitals          258                      $1.706 billion

           Re hab Specialty Ho spitals                 204                      $1.388 billion

           Psych iatric S pecialty Ho spitals          505                      $0.637 billion

           Critic al Acc ess Ho spitals                318                      $0.128 billion

           Totals                                      3,721 hospitals          $8.712 billion
                                                       and units
          * Data taken from H CIS, the HCFA Custom er Informatio n System . Run D ate 01 /28/2 002 .


An estimated $800 million was paid in error due to issues of medical necessity

          For the past 5 years, the OIG has conducted annual reviews to estimate the extent of fee-
          for-service payments that do not comply with Medicare requirements. In Fiscal Year
          1996, $23 billion of Medicare payments were estimated to be improper due to problems
          with documentation, coding, medical necessity, coverage, and other issues.

          By the year 2000 review, payment errors due to medical necessity issues had declined to
          $5.1 billion (from $8.5 billion in the 1996 review). Medicare has been successful in
          lowering the overall payment error rate through a combination of education and
          enforcement activities. Errors in hospital inpatient services due to medical necessity
          issues were reduced to $1.8 billion for PPS hospitals, but an additional $800 million was
          attributed to PPS-exempt hospitals. Although not statistically significant, this is slightly
          higher than the $624 million paid in error in 1996.

          A comparison of error rates for fiscal year measurements in 1996 and 2000 are listed
          below in Table 2. These data were previously published in our audit report “Improper
          Fiscal Year 2000 Medicare Fee-for-Service Payments," (A-17-00-02000).




Oversight of Medicare PPS-Exempt Hospital Services        5                                            OEI-12-02-00170
                                                  Table 2

                                 Improper Medicare Fee-For-Service Payments



           Estimate of Improper Payments                          FY1996          FY2000

           Total Medicare Payments in Error                     $23.2 billion   $11.9 billion

           Portion of Error Attributed to Medical               $8.5 billion    $5.1 billion
           Necessity Issues

           Portion of Error Attributed to Medical               $3.3 billion    $1.8 billion
           Necessity Issues in PPS Hospital Inpatient
           Services

           Portion of Error Attributed to Medical               $0.6 billion    $0.8 billion
           Necessity Issues in PPS-Exempt Inpatient
           Services




Oversight of Medicare PPS-Exempt Hospital Services   6                                 OEI-12-02-00170
                                         CONCLUSION

          Our review identified a gap in Medicare’s program integrity controls and strategy. The
          PPS-exempt hospital inpatient services have not been routinely reviewed for medical
          necessity since the PRO program eliminated routine medical review from its contracts in
          1995. Fiscal intermediaries, who reviewed claims prior to the PPS, ceased review with
          the establishment of the PRO program. The PPS-exempt hospitals received
          approximately $8.7 billion from Medicare in the year 2000 and $800 million of the
          projected year 2000 Medicare payment error rate was attributed to PPS-exempt facilities.
          The number of providers, the amount of Medicare reimbursement going to them, and the
          sizable payment error rate associated with PPS-exempt inpatient services makes it critical
          that systematic oversight occur. During the course of this inspection, CMS published
          Transmittal 21, directing fiscal intermediaries to include PPS-exempt inpatient services in
          their medical review functions, within their current operating budget. While we applaud
          CMS’ action, we remain concerned since additional funds were not awarded in support of
          this additional responsibility.


                              RECOMMENDATION


CMS should ensure that oversight of PPS-exempt hospital services is
performed

          Over 3,700 acute and post-acute providers have been free from any systematic review
          since 1995. While the potential for review now exists, there is still no dedicated funding,
          nor is there an explicit level of effort or performance goal for PPS-exempt inpatient
          review. To the extent that fiscal intermediaries elect to conduct review of PPS-exempt
          hospitals, the resources must be taken from review of other Part A providers, such as
          skilled nursing facilities and home health agencies.

Agency comments

          The CMS agreed with our recommendation, referencing Transmittal 21. Given the lack
          of funding for this additional work, it is not clear to what extent fiscal intermediaries will
          conduct systematic oversight, including medical review, nor is it clear to what extent this
          may hamper oversight of other Part A provider types by drawing off resources. The CMS
          should be able to assess the effects of this program memorandum as the results of its




Oversight of Medicare PPS-Exempt Hospital Services   7                                     OEI-12-02-00170
          Comprehensive Error Rate Testing program become available. Appendix B contains the
          full text of CMS’ comments.




Oversight of Medicare PPS-Exempt Hospital Services   8                           OEI-12-02-00170
                                                         APPENDIX A




Oversight of Medicare PPS-Exempt Hospital Services   9       OEI-12-02-00170
Oversight of Medicare PPS-Exempt Hospital Services   10   OEI-12-02-00170
                                                          APPENDIX B




Oversight of Medicare PPS-Exempt Hospital Services   11       OEI-12-02-00170
                           ACKNOWLEDGMENTS


This report was prepared under the direction of Stuart Wright, Director, Medicare and Medicaid
Branch. Other principal Office of Evaluation and Inspections staff who contributed include:

Bambi Straw, Program Specialist
Linda Moscoe, Technical Support Staff




Oversight of Medicare PPS-Exempt Hospital Services   12                            OEI-12-02-00170
